AMERICANS WITH DISABILITIES ACT:
Leadership Needed to Help Ensure That Stations Served
By Amtrak Are Compliant




                             Report No. 109-2010 | September 29, 2011
 


    NATIONAL RAILROAD
    PASSENGER CORPOARATION 
                                                      The Inspector General
                                                                                                      


Memorandum
To:            Joseph Boardman, President and Chief Executive Officer 



From:          Ted Alves                                          

Date:          September 29, 2011

Subject:       Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations 
               Served By Amtrak Are Compliant (Report No. 109‐2010) 
 
Enclosed is our report entitled Americans with Disabilities Act: Leadership Needed to Help Ensure 
That Stations Served By Amtrak Are Compliant (Report No. 109‐2010). The objectives of this audit 
were to assess (1) Amtrak’s progress in achieving ADA‐compliance at stations it serves, and 
(2) whether any gaps exist in Amtrak’s plan to achieve ADA‐compliance by its September 30, 
2015, goal. 
 
Your response to our draft report can be found in Appendix I. 
 
We appreciate the courtesies and cooperation of Amtrak representatives during this audit. If 
you have any questions, please contact me at 202.906.4600 (Ted.Alves@amtrakoig.gov) or 
David Warren, Assistant Inspector General, Audits, at 202.906.4742 
(David.Warren@amtrakoig.gov). 
 

cc:      Eleanor Acheson, Vice President, General Counsel 
         Stephen Gardner, Vice President, Policy and Development  
         Joseph McHugh, Vice President, Government Affairs and Communications 
         Frank Vacca, Chief Engineer
         DJ Stadtler, Chief Financial Officer 
         William Herrmann, Managing Deputy General Counsel 
         Jessica Scritchfield, Senior Director, Internal Controls/Audit 

Attachment

 
                                                                                                               Report No. 109-2010
                                                                                                               September 29, 2011




AMERICANS WITH DISABILITIES ACT:
Leadership Needed to Help Ensure That Stations Served By Amtrak Are Compliant
The Americans with Disabilities Act (ADA) became law in 1990 and required that intercity rail stations be made accessible
to persons with disabilities by July 26, 2010. There are 482 Amtrak-served stations that are required to be ADA-compliant.
Our objectives were to assess Amtrak’s progress in achieving compliance and whether gaps exist in its updated plan to
achieve compliance by its goal date of September 30, 2015.

WE FOUND _____________________________                              wheelchairs, called the Mobility First program. However,
                                                                    progress in implementing PIDS has been limited and the
Amtrak has not met the requirement to make all stations             Mobility First program has taken longer to complete than
accessible by July 2010. Since 1990 Amtrak has made limited         expected.
progress in making the stations it serves ADA-compliant and         Key gaps also exist in Amtrak’s October 2010 updated plan.
since its 2009 report to Congress, no additional stations have      First, the plan does not address how stations that Amtrak
become compliant. The compliant stations served about 34            serves but has no ADA responsibility for will achieve
percent of Amtrak’s FY 2010 ridership. The remaining                compliance. Achieving compliance for those stations is
stations have not been deemed compliant.                            dependent upon other parties—who are responsible for 225
                                                                    station structures, 83 platforms, and 241 parking facilities.
   Status of ADA-Compliance as of July 1, 2011                      Second, the plan does not include the estimated cost of
                                Number of Stations                  compliance. On a related note, Amtrak does not have adequate
 ADA Category:                Deemed Not Yet Deemed                 support for its FY 2012 ADA budget request of $175 million.
 Amtrak . . .                Compliant       Compliant              Therefore, we question the need for $175 million. Because
 has sole responsibility                9                   138     Amtrak spent less than anticipated in FY 2010, the Board of
 shares responsibility                 31                   230     Directors approved a Finance Department proposal that no FY
 has no responsibility                  8                    66     2011 funds be used for ADA projects.
  Total                                48                   434
 Source: Amtrak                                                     The underlying cause of the limited program progress and
                                                                    planning weaknesses is the program’s fragmented
Recent actions by Amtrak have laid the groundwork to help           management and lack of accountability for results. Currently,
ensure compliance by its goal date of September 2015. The           seven departments are involved in program management,
key steps include (1) determining who has ADA responsibility        with no office or official held accountable for results. Further,
for Amtrak- served stations; (2) refocusing its compliance plan     the current status of ADA efforts leaves the company
on stations at which Amtrak has ADA responsibility; and (3)         vulnerable to significant financial liability resulting from
most importantly, developing a multi-year program, called the       potential legal judgments, and detracts from Amtrak’s goals of
Accessible Station Development Program, to identify and             improving safety and customer service.
complete the work required to make stations ADA-compliant.
While these are important steps, progress in implementing the       WE RECOMMEND _______________________
Accessible Station Development Program has been limited.
For example, while some station facility assessments have           OIG makes recommendations to address the program’s
been completed, no construction contracts have been awarded.        fragmented management, lack of accountability, weaknesses in
                                                                    program cost estimates, and gaps in the compliance plan.
In addition, Amtrak developed and piloted a program to
                                                                    Amtrak had mixed reaction to the OIG recommendations,
provide audio and visual messages for passengers who are
                                                                    agreeing with two and the intent of one but disagreeing with
hearing or visually impaired or blind, called the Passenger
                                                                    the recommendations regarding fragmented program
Information Display System (PIDS); it also initiated a
                                                                    management and how stations where Amtrak has no ADA
program to improve access to stations for persons using
                                                                    responsibility will become compliant.
           Full report available at http://www.amtrakoig.gov
           For further information, contact David R. Warren, Assistant Inspector General, Audits, at 202.906.4742.
                            Amtrak Office of Inspector General
               Americans with Disabilities Act: Leadership Needed to Help
                 Ensure That Stations Served By Amtrak Are Compliant
                       Report No. 109–2010, September 29, 2011

                           TABLE OF CONTENTS

INTRODUCTION                                                                1

  Objectives                                                                2

FINDINGS AND RECOMMENDATIONS                                                3

  Limited Progress in Making Stations ADA-Compliant                         3

  Plan Refocused But Does Not Include Funding Needs or
      Strategy for Dealing with Other Parties                               10

  Fragmented Program Management and Lack of Accountability:
      Underlying Causes of Limited Progress and Gaps in Planning 13

CONCLUSIONS                                                                 16

RECOMMENDATIONS                                                             16

MATTER FOR CONGRESSIONAL CONSIDERATION                                      17

MANAGEMENT COMMENTS AND OIG RESPONSE                                        17

Appendixes
    I    Comments From Amtrak’s President and CEO                           20
    II   Scope and Methodology                                              23

    III Stations Reported as ADA-Compliant                                  25
    IV Stations Reported as Non-ADA-Compliant                               27
    V Abbreviations                                                         38

    VI Team Members                                                         39
                                   Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011




INTRODUCTION
The Americans with Disabilities Act (ADA) became law in 1990, and required that intercity rail
stations be made accessible to persons with disabilities by July 26, 2010. In fiscal year (FY)
2010, Amtrak provided intercity rail passenger service to 28.7 million passengers;
approximately 304,600 passengers with disabilities (about 1 percent) rode Amtrak. Amtrak
serves 528 stations but reports that only 482 stations are required to be ADA-compliant.1 For
ADA purposes, a station consists of one or more various station structures, platforms, and site
improvements, including parking facilities and pathways.2

Following the passage of ADA, the U.S. Department of Transportation promulgated
regulations that established requirements for accessibility of rail stations.3 The Department of
Transportation regulations established standards for the height of ticket counters, types of
signage, width of doorways, relative height and setback of rail platforms, and direction on
how mobility-impaired passengers are to be accommodated when boarding and disembarking
from trains. The U.S. Access Board4 has issued guidelines indicating how buildings, facilities,
and transportation vehicles can be made accessible to persons with disabilities. The
Department of Transportation guidelines pertaining to stations have been amended over the
years to incorporate Access Board guidelines.

In February 2009, Amtrak provided a plan to Congress as required under Section 219 of the
Passenger Rail Investment and Improvement Act of 2008 (PRIIA). PRIIA required Amtrak to
report on achieving ADA-compliance by the statutory deadline of July 26, 2010. However, the
Amtrak report indicated that achieving ADA-compliance at all stations it serves is a complex
and resource-intensive challenge that could not be done by the 2010 statutory deadline. The
Amtrak report used a goal date of September 30, 2015. The plan included information that only
48 of Amtrak served stations that are required to be compliant were ADA-compliant. The plan


1 Amtrak reports that 46 stations are exempt from ADA requirements; 12 stations at which service has been
suspended as a result of Hurricane Katrina; 25 “flag stop” stations in rural locations, where trains serve only on a
“stop-as-required” basis; and nine VIA Canadian rail stations. In July 2009, in response to PRIIA Section 226,
Amtrak reported that $7.5 million was required to return the 12 Katrina impacted stations noted above to a state
of good repair and meet ADA requirements.
2 In this report we use the term station to refer to a station structure, platform, and/or parking facility. However, as

noted in the report, some locations do not have a station structure and/or parking facility.
3 Transportation Services for Individuals with Disabilities (49 CFR Part 37).

4 The Access Board is an independent federal agency devoted to accessibility issues for individuals with

disabilities; it develops and maintains design criteria for buildings, other facilities, and transportation vehicles.
                                                                                               2
                                   Amtrak Office of Inspector General
                       Americans with Disabilities Act: Leadership Needed to Help
                         Ensure That Stations Served By Amtrak Are Compliant
                               Report No. 109–2010, September 29, 2011

further noted that $1.5 billion was needed to make the remaining 434 stations ADA-compliant
by Amtrak’s goal date. The plan was updated in October 2010.5



Objectives

Our audit objectives were to assess Amtrak’s plans to achieve compliance with the
requirements of ADA. Specifically, we assessed (1) the progress Amtrak has made toward
achieving ADA-compliance at the stations it serves, and (2) whether any gaps exist in
Amtrak’s plan to achieve ADA-compliance by its September 30, 2015 goal. The scope of our
audit includes both the February 2009 and October 2010 plans. For a more detailed discussion
of our audit scope and methodology, see Appendix II.




5
    The plan was updated in August 2011, which was after we completed our fieldwork.
                                                                                               3
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

FINDINGS AND RECOMMENDATIONS
LIMITED PROGRESS IN MAKING STATIONS ADA-COMPLIANT
Since 1990 Amtrak has made very limited progress in making its stations ADA-compliant,
only 10 percent of served stations required to be compliant were reported as compliant. During
the last 2 years, Amtrak has laid the groundwork to help ensure that all stations it serves that
are required to be compliant are compliant by Amtrak’s goal date of September 30, 2015. The
key steps in laying the foundation include (1) determining who has ADA responsibility for the
stations Amtrak serves; (2) refocusing its compliance plan on stations at which Amtrak has
sole or shared ADA responsibility; and (3) most importantly developing a multi-year program,
called the Accessible Station Development Program, to identify and complete the work
required to make stations ADA-compliant. While these are important steps, progress in
implementing the Accessible Station Development program has been limited. For example,
while facility assessments have been completed for some stations, no construction contracts
have been awarded.

In addition, Amtrak developed and piloted a program to provide audio and visual messages
for passengers who are hearing or visually impaired, called the Passenger Information Display
System (PIDS); and initiated a program to improve access for persons in wheelchairs, called
the Mobility First program. However, progress in implementing PIDS has been limited and the
Mobility First has taken longer than expected to complete. For example, the date to install
wheelchair lifts has been changed from February to September 2011.



Few Stations Are Fully ADA-Compliant
In February 2009, Amtrak reported that 48 stations servicing 34 percent of the FY 2010
ridership were ADA-compliant. Almost 2½ years later, no additional stations have become
ADA-compliant, leaving 434 stations that have not yet been deemed ADA-compliant. An
Amtrak official involved in managing the ADA program noted that these are in various stages
of compliance.

Amtrak’s ADA-compliant served stations include stations at which Amtrak has sole ADA
responsibility, shares responsibility with another party, and has no responsibility, as shown in
Table 1.
                                                                                                          4
                                Amtrak Office of Inspector General
                    Americans with Disabilities Act: Leadership Needed to Help
                      Ensure That Stations Served By Amtrak Are Compliant
                            Report No. 109–2010, September 29, 2011

                 Table 1. Stations ADA-Compliant as of July 1, 2011
                                                            Number of Stations
                                                                             Not Yet
                                                            Deemed          Deemed
                Category                                   Compliant     Compliant
                Amtrak has sole ADA responsibility                 9             138
                Amtrak shares ADA responsibility                  31             230
                Amtrak has no ADA responsibility                   8              66
                 Total                                            48             434

               Source: Amtrak’s October 2010 plan update


See Appendix III for a listing of the reported ADA-compliant stations and Appendix IV for the
stations that have not been assessed to determine if they are ADA-compliant.

An assessment by the Engineering Department concluded that there are nine ADA-compliant
stations at which Amtrak has sole ADA responsibility. The Department engaged a consultant
to assist in the assessment and used the Americans with Disabilities Act Accessibility Guidelines
Checklist for Buildings and Stations developed by the U.S. Access Board. These assessments were
completed to support the February 2009 Amtrak ADA Compliance Plan. The remaining 39
ADA-compliant stations Amtrak shares or has no responsibility. These stations were
determined to be ADA-compliant based on assessments and completion of compliance work
by Amtrak Engineering.

Even though these locations are reported ADA-compliant, Amtrak Engineering plans to have
Jacobs Project Management Company complete facility assessments at the 39 stations at which
Amtrak shares or has no responsibility.6 Facility assessments are planned for eight of these
stations before the end of FY 2011. If the facility assessment indicates that no work is required
to make the station ADA-compliant, the completed assessment will document the station’s
compliance. Facility assessments for the remaining 31 stations are planned for Fiscal Years
2012 through 2014. There are no plans to reassess ADA compliance at the eight stations at
which Amtrak has no ADA responsibility. (These stations are identified in Appendix III).




6In August 2009, the Amtrak Engineering Department contracted with Jacobs Project Management Company to
be the program manager for the ADA construction program.
                                                                                                 5
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

ADA Responsibility Has Been Determined
During 2008 and 2009, Amtrak’s Law Department determined who had ADA responsibility at
each of the Amtrak served stations requiring compliance. This action was a critical first step
because it provided the information to support the 2010 plan update that refocused ADA
efforts first to stations where Amtrak had sole responsibility and next to those with shared
responsibility. As seen in Figure 1, Amtrak determined that it has sole or shared responsibility
for ADA compliance for about half of the station structures and parking facilities and for 83
percent of the platforms. The responsibility for the remainder of the station components rests
with other parties, including cities, landlords, and freight railroads.


   Figure 1. Percentage of Stations for Which Amtrak Has Sole or Shared
                    Responsibility for ADA-Compliance




                  Source: OIG based on Amtrak data

To determine ADA responsibility, the Law Department reviewed all leases and operating
agreements with third parties such as landlords or freight railroads to determine whether the
agreement assigned responsibility for ADA-compliance. Absent an agreement on assigning
ADA responsibility, Amtrak followed the Department of Transportation regulations (49 CFR
37.49) in determining ADA-compliance responsibility. In the case of a station at which more
than 50 percent is owned by a public entity, that entity is the responsible party. If more than 50
percent is owned by a private entity, the parties providing commuter or intercity rail service to
                                                                                                                  6
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

the station are the responsible parties, in a proportion equal to the percentage of all passenger
boardings.


Implementation of Accessible Station Development Program Has Been Limited

Amtrak initiated the Accessible Station Development Program in 2010. The completion of this
program is essential to meeting the ADA-compliance goal date. Once completed, this program
will provide, for the first time, ADA-compliance construction and procurement requirements.
Under the program, Amtrak Engineering, working with Jacobs Project Management
Company, has developed (1) a survey assessment to identify the work needed to bring all
Amtrak served stations into ADA-compliance and (2) a schedule to complete the survey at all
Amtrak stations requiring compliance by Amtrak’s goal date.7 As of June 30, 2011, the survey
assessment had been completed for 77 of the 104 stations in the FY 2011 program. According to
Amtrak Engineering officials, project designs for the work at these stations are currently being
developed. These officials expect to award construction contracts for work at 12 stations by the
end of this fiscal year. Facility assessments for the remaining 27 stations have been started and
are likewise planned for completion by September 30, 2011. However, no construction
contracts have yet been awarded.

Under its contract, Jacobs Project Management Company must first complete an accessibility
survey assessment to identify the work needed to bring stations into ADA-compliance. The
assessment considers, among other things,

    accessible routes from the public right of way, public transit, accessible parking, and
    passenger loading zone;
    curb ramps;
    elevators and wheelchair lifts;
    ticket and baggage counters;
    drinking fountains, telephones, and bathrooms;




7Amtrak officials stated that it does not plan to complete assessments for stations where they have no ADA
responsibility. However, they are included in the schedule for contingency planning purposes should legislation
be enacted that expands Amtrak’s responsibilities.
                                                                                               7
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

   boarding platforms and rail crossings; and
   signage.

When the assessments are completed, Jacobs is to prepare project designs to address the ADA-
compliance deficiencies. Once the designs are approved by Amtrak Engineering, Jacobs is to
then award construction contracts and oversee the construction process. However, as of July
31, 2011 no construction contracts have been awarded. Finally, when construction is
completed, Jacobs must certify that the station or station component is ADA-compliant.

Amtrak Engineering estimates that it will take between 18 to 22 months to complete the survey
assessment, complete project design, award a contract, complete construction, and certify
compliance (see Table 2).

              Table 2. Estimated Time Needed to Assess, Construct,
                      and Certify ADA-Compliance at Stations
                                                                 Months to
                     Step                                        Complete
                     Pre-construction
                       Complete facility assessment
                       Complete project design/award contract       8 to 10
                     Complete construction/certify compliance      10 to 12
                     Source: Amtrak Engineering

The time to complete project design and award a contract is affected by the requirement to
obtain approval from the appropriate state historical preservation office before commencing
construction. According to an Engineering official, some preservation offices delegate review
and approval to local bodies that do not meet on a regular basis. As a result, the longer review
and approval process has caused some projects to be postponed or delayed.



Limited Progress in Implementing Passenger Information Display System

The Passenger Information Display System (PIDS) was developed in 2010 to provide both
audio and visual messages for passengers who are hearing impaired, deaf, visually impaired,
                                                                                                                   8
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

or blind.8 PIDS was installed at three stations in Maryland as a pilot project in FY 2010 and
Amtrak plans to install it at five more stations during FY 2011. However, the total number of
stations receiving PIDS and the cost of the program are unknown.

The Marketing, Sales, Distribution, and Customer Service Department is responsible for
procuring and installing the electronic signs that are placed on stations or platforms and the
associated software that links the signs to a station’s existing audio system. PIDS will only be
installed at stations at which audio messaging currently exists. However, according to the
Engineering Department, Amtrak does not yet know how many stations have existing audio
messaging.

Engineering will use the Accessible Station Development Program’s facility assessment
process to identify PIDS’ needs. Only nine of the 77 stations at which facility assessments have
been completed have existing audio messaging. According to Amtrak officials, precise
program cost estimates cannot be developed until the PIDS requirements are determined. This
data is planned to be available by September 30, 2011.


Making More Stations Wheelchair-Accessible Taking Longer Than Planned

The Mobility First program was developed in 2009 to improve wheelchair accessibility at
stations that are not currently wheelchair-accessible. Prior to implementing the Mobility First
program, there were 317 wheelchair lifts installed at 241 stations served by Amtrak. As a result
of this program, 206 wheelchair lifts have been purchased and contracts have been awarded to
construct protective sheds and make any other necessary site improvements. According to the
October 2010 plan update, all wheelchair lift installations and any other necessary
improvements were scheduled to be completed by February 2011, but completion is now
schedule for September 30, 2011.

Both the Engineering and Transportation departments are involved in implementing the
Mobility First program. Station Operations within the Transportation Department manages
the purchase and delivery of the lifts to the stations. Between May 2010 and February 2011 it
purchased 206 wheelchair lifts to be used as follows:



8According to 28 CFR Part 36 Appendix A, Sections 10.3(14) and 10.4(6), “Where public address systems are
provided to convey information to the public in terminals, stations, or other fixed facilities, a means of conveying
the same or equivalent information to persons with hearing loss or who are deaf shall be provided. Such methods
may include, but are not limited to, visual paging systems using video monitors and computer technology.”
                                                                                                 9
                                Amtrak Office of Inspector General
                    Americans with Disabilities Act: Leadership Needed to Help
                      Ensure That Stations Served By Amtrak Are Compliant
                            Report No. 109–2010, September 29, 2011

     174 at stations that are currently not wheelchair-accessible,
     15 at stations to provide a second wheelchair lift, and
     17 for training and spares.

Amtrak Engineering manages the construction phase of the Mobility First program. Figure 2
shows the wheelchair lift in a protective shed and how the lift is used to assist a passenger
with a disability to board a train.

       Figure 2. Wheelchair Lift in Protective Shed and In Use




   Source (both photos): Amtrak


Before a wheelchair lift can be placed at a location, a protective shed must be constructed to
store the lift; associated repairs to platforms and pathways between parking lots and the
platforms must also be completed. However, the wheelchair lifts were procured before the
required construction related to lift use was completed. Consequently, the lifts could not be
used and they were stored at various locations throughout the United States.

As of July 31, 2011, 151 lifts had been installed; 32 lifts were scheduled to be installed in
August and September 2011; and the remaining lifts have not been installed due to various
complications at the stations. According to Engineering and Transportation Department
officials, the installation of wheelchair lifts was delayed because of problems with the
wheelchair lift locking mechanisms on the protective sheds, difficulties in lease and access
agreements, and objections by State Historic Preservation Officers regarding the appearance of
the sheds.
                                                                                                                  10
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

PLAN REFOCUSED BUT DOES NOT INCLUDE FUNDING NEEDS OR
STRATEGY FOR DEALING WITH OTHER PARTIES

Key gaps exist in Amtrak’s updated plan to achieve ADA-compliance. The plan update is now
focused initially on stations at which Amtrak has sole ADA responsibility and then next where
it shares responsibility. However, it does not include a strategy for making stations ADA-
compliant where other parties are responsible for ADA-compliance or an estimate of the cost
to achieve ADA compliance. The lack of sound cost estimates also extends to the lack of
adequate support for the $175-million FY 2012 budget request.



Plan Refocused

The October 2010 plan update refocused its ADA-compliance program in two critical
ways. First, while the February 2009 plan focused on both ADA-compliance and “state-
of-good-repair”9 work, the plan update focused solely on ADA-compliance work.
Second, the 2009 plan focused on all Amtrak served stations that were required to be
ADA-compliant, while the plan update initially focuses efforts on the stations10 where
Amtrak has sole responsibility but are not fully ADA-compliant, and then the stations
at which Amtrak shares ADA responsibility and also are not fully compliant.


Cooperation of Other Parties Needed

Amtrak’s ability to achieve system-wide compliance depends on other parties and Amtrak
faces significant challenges in gaining their cooperation. First, there are many stations for
which other parties other than Amtrak are responsible for ADA-compliance. However, the
2010 plan does not address how these stations will become compliant. Second, Amtrak also
needs to rely upon other parties to complete ADA work at stations at which it has sole or
shared responsibility. However, difficulty in reaching agreements has and will continue to



9 In a July 25, 2008, memorandum to the Senate Committee on Appropriations, the Secretary of Transportation
defined “state of good repair” as “a condition in which existing physical assets, both individually and as a
system, (a) are functioning as designed within their “useful lives”, and (b) are sustained through regular
maintenance and replacement programs; state of good repair represents just one element of a comprehensive
capital investment program that also addresses system capacity and performance."
10 This number can fluctuate based on changes in leases, ownership, or other business relationships that affect

ADA responsibility.
                                                                                                       11
                                Amtrak Office of Inspector General
                    Americans with Disabilities Act: Leadership Needed to Help
                      Ensure That Stations Served By Amtrak Are Compliant
                            Report No. 109–2010, September 29, 2011

adversely affect ADA-compliance timelines and Amtrak’s ability to meet its compliance goal
date.

Our analysis indicates that other parties are responsible for ADA-compliance at stations that
affected between 20 and 39 percent of Amtrak’s FY 2010 ridership, as seen in Table 3.


    Table 3. Reported Stations Where Amtrak Has No ADA Responsibility

                                                         Fiscal Year 2010           Percentage of
                                      Number of                 Ridership         Total Fiscal Year
       Locations                      Locations              (in millions)         2010 Ridership
       Stations                             225                        8.4                     29%
       Platforms                             83                        5.9                     20%
       Parking facilities                   241                       11.2                     39%
       Source: OIG analysis of ADA responsibility and ridership data in the October 2010 plan update

In an effort to facilitate ADA-compliance, Amtrak initiated a program in 2009 to design and
build ADA-required improvements for all stations, regardless of legal responsibility, but
subject to the other responsible parties’ executing agreements to reimburse Amtrak for the
improvements. Between April and October 2010, Amtrak’s Policy and Development
Department attempted to negotiate reimbursement agreements with 14 parties, but was
unable to finalize any agreements. According to Amtrak’s Policy and Development
Department officials, disagreements over project scope and cost precluded reaching
agreement. As a result, Amtrak refocused its ADA program in the October 2010 plan update
on those stations for which Amtrak is legally solely responsible. The Accessible Station
Development Program will establish the requirements needed to make stations ADA-
compliant at which Amtrak has no ADA responsibility. However, the plan does not address
how these requirements will be met by Amtrak’s goal date.

Even when Amtrak has sole or shares ADA responsibility for a station, it cannot perform the
work without obtaining consent from the owner and/or the owner over whose property the
construction crew must traverse to access the work site. The Law Department obtained access
agreements with all host railroads that permitted the assessments completed under the
Accessible Station Development Program to be accomplished. According to Engineering
Department officials, most owners have provided the access Amtrak needs in order to make
the necessary ADA improvements. However, Amtrak has encountered some property owners
who have refused to allow improvements to be made to their property or to provide access
across their property.
                                                                                                               12
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

Overall Program Funding Has Not Been Estimated

The total funding required to achieve ADA-compliance has not been estimated. The October
2010 plan update did not include an estimate of the funding required to achieve compliance by
Amtrak’s goal date.11 As part of the Accessible Station Development Program, Amtrak
Engineering has established a schedule for completing survey assessments in fiscal year 2014
for all stations it serves. According to Amtrak officials, until these assessments are completed,
reliable data will not be available to project overall program funding requirements. Absent an
overall program cost estimate, Amtrak’s approach is to annually request funds for ADA
projects as part of its annual legislative grant request. This approach asks Congress to approve
annual funding requests without any perspective on total program costs and impact the funds
would have on achieving program completion. However, the assessments completed under
the Accessible Station Development Program and the determination of ADA responsibility
have generated sufficient information on requirements and costs to develop an order of
magnitude cost estimate for the ADA program.

The lack of cost estimate information is further illustrated by the lack of documentation to
support and justify the FY 2012 ADA program budget request of $175 million. No
documentation exists to support the number, type, or location of projects that would be
funded. Further, Amtrak has not yet developed a plan indicating how these funds would be
spent. Based on Amtrak’s expenditure rate of funds for ADA projects so far, and the lack of
support for the FY 2012 request, Amtrak is not able to provide assurance that all of the $175
million request could be effectively and efficiently used within FY 2012. Therefore, we
question the need for $175 million.

In FY 2010, Amtrak set aside $144 million ($26 million in American Recovery and
Reinvestment Act funds and $118 million from its capital budget) to fund ADA efforts.
However, as shown in Table 4, half-way through FY 2011, Amtrak had spent only $94 million
of the $144 million allocated for ADA projects in FY 2010.




11
  Amtrak’s first ADA plan issued in February 2009 indicated that it would cost about $1.5 billion to achieve
ADA-compliance at all stations by September 2015. However, Amtrak stated that the cost estimate was based on
outdated data and also included costs to bring stations to a “state of good repair.” The February 2009 plan also
indicated that Amtrak’s ADA-compliance cost could be increased by the outcome of a Notice of Proposed
Rulemaking issued by the Department of Transportation in February 2006 that would require level-entry
boarding at every accessible rail car over the full length of the platform.
                                                                                                       13
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

         Table 4. Status of FY 2010 ADA Funding as of March 31, 2011
                              (dollars in millions)

                                                                                     Expenditures
                                                                    Reported        as Percentage
      Fiscal Year 2010         Authorized Budget                Expendituresa      of Total Budget
      Capital budget                        $118                         $68                  58%
      ARRAb                                   26                           26                100%
       Total                                $144                         $94                  65%
     a
      According to the ADA Working Group, approximately $46 million has been contractually obligated
       to Jacobs Project Management Company but has not been spent.
     b
      American Recovery and Reinvestment Act of 2009.

     Source: Amtrak Finance Department

The Finance Department concluded that Amtrak has sufficient FY 2010 funds remaining to
fund ongoing ADA activities through the end of this calendar year. As a result, in June of this
year, the Board of Directors approved a Finance Department proposal that no FY 2011 funds
be used for ADA projects.



FRAGMENTED PROGRAM MANAGEMENT AND LACK OF
ACCOUNTABILITY: UNDERLYING CAUSES OF LIMITED PROGRESS AND
GAPS IN PLANNING
The limited progress in making stations ADA-compliant and gaps in program planning
appear largely attributable to the programs’ fragmented management structure, which has led
to a lack of accountability. Currently, seven different departments play various roles related to
the programs’ management, with no one department or individual being accountable for
achieving program goals and results. Engineering and to a lesser extent Transportation have
the greatest responsibilities for project implementation. Figure 3 shows the departments
involved in managing various aspects of the ADA program.
                                                                                          14
                              Amtrak Office of Inspector General
                  Americans with Disabilities Act: Leadership Needed to Help
                    Ensure That Stations Served By Amtrak Are Compliant
                          Report No. 109–2010, September 29, 2011

        Figure 3. ADA-Compliance Relationships and Responsibilities




The Executive Oversight Committee, with members from five departments, was established in
mid-2010 and meets biweekly to provide senior management ADA program oversight.
However, minutes of the meetings are not kept. The General Counsel and Chief Financial
Officer indicated that the committee has approved program implementation issues such as
changes to the number of stations in the FY 2011 program and designs for some locations that
required an overpass versus track ramps for disabled access.

The ADA Working Group coordinates the activities of the various departments involved in
implementing ADA-related programs. The group consists of staff from seven departments:
Law; Engineering; Policy and Development; Government Affairs and Communications;
                                                                                              15
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

Transportation; Finance; and Marketing, Sales, Distribution, and Customer Service. While the
Deputy General Counsel coordinates the biweekly Working Group meetings, no one office or
individual is responsible for and held accountable for implementation of the ADA program.

As previously discussed, implementation of the ADA program is carried out by multiple
departments: Engineering has responsibility for the Accessible Station Development Program,
Transportation, as part of the Mobility First program, manages purchasing wheelchair lifts,
while Engineering manages constructing the sheds used to store the lifts. Likewise, the
Passenger Information Display System is managed by Marketing, Sales, Distribution, and
Customer Service, while Engineering, under the Accessible Station Development Program, is
responsible for determining the number of stations needing the displays and coordinating the
construction to install the signs. It appears to us that this fragmented approach has contributed
to the limited progress made in implementing the various programs that contribute to ADA-
compliant stations.

Amtrak recognized that an ADA program manager was needed to provide overall program
oversight. Amtrak has recently hired an individual to become the ADA program director and
he will start work in September 2011. This individual will report to the Vice President for
Government Affairs and Corporate Communications and will be responsible for overall
management and oversight of the ADA program to include collaborating with the various
departments involved in ADA compliance activities.

While hiring a program director is a step in the right direction, this addition does not address
the fragmented management structure and lack of accountability. The new program director
will report to the Vice President for Government Affairs, who is a member of the Executive
Oversight Committee but has no responsibility for the three ongoing ADA programs.
Consequently, the program director will not have any direct responsibility and authority for
the ongoing ADA-compliance programs. These programs principally reside in the Engineering
Department, and to a lesser extent, the Transportation Department. Unless the new program
director is given authority to control and manage resources and program activities Amtrak-
wide, the Company will continue to face risks of ongoing delays and disconnects, such as
occurred when Transportation acquired wheelchair lifts and Engineering built sheds to house
the lifts.

It is important that Amtrak correct these organizational deficiencies because they increase the
risk that funds will not be used efficiently and effectively and that Amtrak will not meet its
goal of ensuring full compliance by September 2015. In addition, Amtrak’s current and
ongoing lack of ADA-compliance creates a potentially significant financial liability risk
                                                                                                16
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

resulting from legal judgments for not being ADA-compliant. Lastly Amtrak’s ongoing non-
compliance detracts from its strategic goals of improving safety and customer service for all its
passengers.


CONCLUSIONS
Amtrak’s approach to managing the ADA program lacks clear lines of authority,
responsibilities, and accountability. As a result, despite recent efforts to move the program
forward, progress has been limited. Even though cost and program scope information is
available, total program cost estimates have not been developed, leaving funding
requirements unclear and not well supported. Hiring a program manager is a good step but it
does not address the underlying problems related to accountability for program results. The
position as now described does not have the authority to guide, direct, and set funding
priorities for the various ADA programs. Until addressed, this fundamental program
management weakness will continue to create the risk that plans and programs will not be
carried out in an efficient and effective manner and increase the likelihood that not all stations
will be compliant by Amtrak’s compliance goal date.


RECOMMENDATIONS
To address the fragmented program management, accountability issue, and limited progress
in achieving ADA-compliance, we recommend that the President and CEO:

1. assign ADA programmatic responsibility to the official with the greatest responsibility for
   ADA program components, most likely the Vice President, Operations;
2. provide the ADA program director position with the authority to manage all ADA
   program components and related funding resources; and
3. Direct the Program Director to
          develop a detailed spending plan to support the FY 2012 budget request;
          develop and provide the Congress an order of magnitude cost estimate for
          completing all ADA programs by the goal date and periodically update the estimate
          as more precise data becomes available; and
                                                                                             17
                              Amtrak Office of Inspector General
                  Americans with Disabilities Act: Leadership Needed to Help
                    Ensure That Stations Served By Amtrak Are Compliant
                          Report No. 109–2010, September 29, 2011

          continue to work with other parties to develop a strategy for achieving ADA
          compliance for stations Amtrak serves but does not have ADA-compliance
          responsibility.



MATTER FOR CONGRESSIONAL CONSIDERATION
Given the lack of documentation to adequately support the FY 2012 budget request, Congress
may wish to require Amtrak to provide adequate justification for Amtrak’s $175 million ADA
grant request before appropriating FY 2012 grant funds.



MANAGEMENT COMMENTS AND OIG RESPONSE

In commenting on a draft of this report, Amtrak had a mixed reaction to our
recommendations—agreeing with two recommendations and the intent of one
recommendation, and disagreeing with two recommendations. Amtrak’s comments and our
response are discussed below. Amtrak’s complete comments appear as Appendix I.

Amtrak disagreed at this time with our recommendation to assign ADA program
responsibility to the official with the greatest ADA program components, most likely the Vice
President of Operations. Amtrak noted, however, that it will reevaluate this decision when it
reviews how the company will be aligned to support its new strategic plan. Amtrak noted that
several options were discussed but management decided to have the ADA program director
report to the Vice President of Government Affairs. Amtrak’s response noted the benefit of
placing the ADA program director in the Operations Department but contrasted the relative
inexperience of the Vice President of Operations with the ADA program to the extensive
experience of the Vice President of Government Affairs as the rationale for its decision. We
continue to believe that the ADA program director should be assigned to the official with the
greatest responsibility for ADA program components to ensure accountability for program
results. However, we recognize that this is ultimately a management decision and we are
encouraged that Amtrak plans to reevaluate the decision after it completes a review of how the
company will be aligned to support its strategic plan.

Amtrak agreed with the intent of our recommendation to provide the ADA program director
with the authority to manage all ADA program components and related funding sources.
Amtrak indicated that it intends to give the program director full authority and accountability
                                                                                                 18
                               Amtrak Office of Inspector General
                   Americans with Disabilities Act: Leadership Needed to Help
                     Ensure That Stations Served By Amtrak Are Compliant
                           Report No. 109–2010, September 29, 2011

for project work and progress. However, Amtrak noted that dozens of employees would have
to be transferred to the ADA program director for him to be given the authority to manage all
program components. Our recommendation did not envision that employees would be
reassigned but rather was intended to ensure that those personnel responsible for the ADA
program components were accountable to the program director for their efforts and progress
in implementing the ADA program plan. One means of holding those personnel accountable
would be to establish a mechanism to ensure the ADA program director has direct input to
their performance evaluation. Unless this or some other similar mechanism is put in place,
Amtrak may continue to encounter problems that we identified such as the disconnect
between buying wheelchair lifts and building storage sheds. Given that Amtrak has
committed to reevaluating its decision on the program director’s reporting relationship after a
period of time, we believe that that evaluation should also address whether accountability has
been adequately established.

Amtrak agreed with our recommendation to develop a detailed spending plan to support the
FY 2012 budget request. Amtrak noted that the program director will implement this
recommendation when he starts in the fall.

Amtrak also agreed with our recommendation to develop and provide Congress with an
order-of-magnitude cost estimate for completing all ADA programs by the goal date and
periodically updating the estimate as more precise data become available. Amtrak noted that it
will instruct the director to develop an order-of-magnitude cost projection for the entire
Accessible Station Development Program.

Finally, Amtrak disagreed with our draft recommendation to develop a strategy to ensure that
stations served but not the responsibility of Amtrak become ADA-compliant by Amtrak’s goal
date. Amtrak noted that it shares the general goal of getting all responsible parties into
compliance because it is potentially beneficial to its passengers. Amtrak noted, however, that
the recommendation as stated is contrary to the policy decision made by the Board of Directors
that the company may not spend compliance resources on station components for which it has
no legal responsibility. Amtrak stated that in July 2010 it notified all potential parties that they
may have compliance responsibilities for certain station components. The company further
noted that there is little else, if anything, that it can do to encourage these parties to comply
with their own legal obligations. We agree that Amtrak has no legal responsibility to ensure
compliance by other parties. We modified our draft recommendation to reflect that point. Our
final recommendation is that the program director should continue to work with other parties
to achieve ADA-compliance for stations that Amtrak serves but for which it does not have
ADA-compliance responsibility. We also continue to believe that Amtrak should look for ways
                                                                                             19
                              Amtrak Office of Inspector General
                  Americans with Disabilities Act: Leadership Needed to Help
                    Ensure That Stations Served By Amtrak Are Compliant
                          Report No. 109–2010, September 29, 2011

to encourage these parties to identify and address ADA deficiencies to ensure that system-
wide compliance is achieved by the goal date.

Amtrak also provided technical comments that we incorporated as appropriate.
                                                                  20
                 Amtrak Office of Inspector General
     Americans with Disabilities Act: Leadership Needed to Help
       Ensure That Stations Served By Amtrak Are Compliant
             Report No. 109–2010, September 29, 2011

                           Appendix I

COMMENTS FROM AMTRAK’S PRESIDENT AND CEO
                                                             21
            Amtrak Office of Inspector General
Americans with Disabilities Act: Leadership Needed to Help
  Ensure That Stations Served By Amtrak Are Compliant
        Report No. 109–2010, September 29, 2011
                                                             22
            Amtrak Office of Inspector General
Americans with Disabilities Act: Leadership Needed to Help
  Ensure That Stations Served By Amtrak Are Compliant
        Report No. 109–2010, September 29, 2011
                                                                                             23
                              Amtrak Office of Inspector General
                  Americans with Disabilities Act: Leadership Needed to Help
                    Ensure That Stations Served By Amtrak Are Compliant
                          Report No. 109–2010, September 29, 2011

                                          Appendix II

                          SCOPE AND METHODOLOGY
This report addresses Amtrak’s plans to achieve compliance with the ADA. Our audit
reporting objectives were to assess (1) Amtrak’s progress in achieving ADA-compliance at
locations its serves, and (2) whether any gaps exist in Amtrak’s plan to achieve ADA-
compliance by its September 2015 goal. The scope included Amtrak’s February 2009 report on
Accessibility and Compliance with the Americans with Disabilities Act of 1990, and Amtrak’s
October 2010 Update on Accessibility and Compliance with the Americans with Disabilities Act of
1990.

To assess Amtrak’s progress in achieving ADA-compliance at locations it serves, we identified
the number of stations reported as ADA–compliant from 2009 through May 2011, as well as
the documentation supporting the basis for reporting stations as compliant. We also reviewed
the status of implementing the Mobility First program, the Accessible Station Development
Program, and the Passenger Information Display System. Further, we interviewed two
members of the Executive Oversight Committee—the General Counsel and Chief Financial
Officer—regarding the role of and decisions made by the Committee. We also interviewed
appropriate officials in Amtrak’s Law; Engineering; Transportation; and Marketing, Sales,
Distribution, and Customer Service departments that are involved in implementing ADA
programs.

To assess whether any gaps exist in Amtrak’s plan to achieve ADA-compliance by its
September 30, 2015 goal, we reviewed both the February 2009 report and October 2010 update
to assess (1) Amtrak’s organizational structure for managing the ADA program; (2) the cost to
achieve ADA-compliance by September 2015 and documentation supporting the FY 2012
budget request for ADA; and (3) the role other owners (third parties) have in achieving ADA
compliance. We obtained data from the Office of Finance on the budget and actual
expenditures for ADA projects for fiscal years 2010 and 2011. We also interviewed appropriate
officials in Amtrak’s Law; Engineering; Transportation; and Marketing, Sales, Distribution,
and Customer Service departments who participated in developing the February 2009 and
October 2010 plans. Finally, we interviewed officials from the U.S. Access Board (a federal
agency responsible for developing and maintaining design criteria) regarding Amtrak’s’ plan
for achieving ADA-compliance.

We performed this audit from August 2010 through June 2011, in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
                                                                                                  24
                                Amtrak Office of Inspector General
                    Americans with Disabilities Act: Leadership Needed to Help
                      Ensure That Stations Served By Amtrak Are Compliant
                            Report No. 109–2010, September 29, 2011

findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

Use of Computer-Processed Data
We obtained budget and actual expenditures for ADA projects for FY 2010 and FY 2011 from
Amtrak’s Financial Information System. We did not validate these numbers but relied on them
based on an unqualified opinion on Amtrak’s financial statements from its external auditors.

Internal Controls
As it related to the ADA program, our audit reviewed the management controls used to
implement the program’s strategic direction and day-to-day activities. This included assessing
the program accountability framework, completeness of program management information,
and the adequacy of program cost estimates. We also reviewed the financial controls related to
the adequacy of support for budget justifications and program spending rates.

Prior Audit
Transportation Accessibility: Lack of Data and Limited Enforcement Options Limit Federal Oversight,
U.S. Government Accountability Office (GAO-07-1126, September, 19, 2007).
                                                                                                        25
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

                                            Appendix III

                       STATIONS DEEMED ADA-COMPLIANT

Amtrak reports the following stations as being ADA-compliant as of October 31, 2010.

                                                               ADA Responsibility
State      Location                        Station Structure        Platform         Parking Facility
                                 Amtrak Has Sole ADA Responsibility
CA         Auburn                               Amtrak                Amtrak              Amtrak
           Berkeley                              N/A                  Amtrak               N/A
           Guadalupe                            Amtrak                Amtrak              Amtrak
           Lompoc-Surf                          Amtrak                Amtrak              Amtrak
           San Diego - Downtown                 Amtrak                Amtrak               N/A
           San Luis Obispo                      Amtrak                Amtrak              Amtrak
           Stockton – San Joaquin St.
           Station                              Amtrak                Amtrak              Amtrak
           Turlock-Denair                       Amtrak                Amtrak              Amtrak
FL         Sanford (Auto Train)                 Amtrak                Amtrak              Amtrak
Subtotal                  9
                                 Amtrak Shares ADA Responsibility
CA         Anaheim                             Shared                Shared         Shared
           Burbank (Airport)                   Shared                Shared               Shared
           Camarillo                             N/A                 Shared             Other party
           Carpentaria                        Other party            Shared             Other party
           Chatsworth                          Shared                Shared               Shared
           Corcoran                           Other party            Amtrak             Other party
           Fremont                            Other party            Shared             Other party
           Fresno                             Other party            Amtrak             Other party
           Glendale                            Shared                Shared               Shared
           Goleta                              Amtrak                Amtrak             Other party
           Grover Beach                          N/A                 Amtrak             Other party
           Hanford                            Other party            Amtrak               Amtrak
           Hayward                            Other party            Amtrak             Other party
           Irvine                              Shared                Shared               Shared
           Los Angeles                         Shared               Other party         Other party
           Martinez                            Shared                Amtrak             Other Party
           Moorpark                              N/A                 Shared               Shared
           Oakland                             Shared                Amtrak             Other party
           Oxnard                              Shared                Shared             Other party
           Roseville                          Other party            Amtrak             Other party
CA         Sacramento                         Other party            Amtrak             Other party
           San Juan Capistrano                 Shared                Shared               Shared
           Santa Ana                           Shared                Shared               Shared
                                                                                                                               26
                                      Amtrak Office of Inspector General
                          Americans with Disabilities Act: Leadership Needed to Help
                            Ensure That Stations Served By Amtrak Are Compliant
                                  Report No. 109–2010, September 29, 2011

                                                                                ADA Responsibility
    State       Location                                 Station Structure           Platform               Parking Facility
                Santa Barbara                                 Shared                  Amtrak                  Other party
                Simi Valley                                     N/A                   Shared                    Shared
                Van Nuys                                      Shared                  Shared                    Shared
                Ventura                                     Other party               Amtrak                  Other party
    DE          Wilmington                                    Shared                  Shared                  Other party
    MD          Baltimore – Penn Station                      Shared                  Shared                  Other party
    NY          New York – Penn Station                       Shared                  Shared                      N/A
    WA          Everett                                     Other party               Shared                  Other party
    Subtotal                  31
                                        Amtrak Has No ADA Responsibilitya
    CA          Antioch-Pittsburg                            Other party               Other party               N/A
                Bakersfield                                  Other party               Other party            Other party
                Fullerton                                    Other party               Other party            Other party
                Modesto                                      Other party               Other party            Other party
                Oceanside                                    Other party               Other party            Other party
                San Jose                                     Other party               Other party            Other party
                Solana Beach                                 Other party               Other party            Other party
                Wasco                                        Other party               Other party            Other party
    Subtotal                   8

    TOTAL                      48
a
    Amtrak has no plans to reassess ADA compliance at these nine stations.

Notes
Amtrak:             Amtrak has responsibility for ADA-compliance for this facility.
Shared:             Amtrak shares responsibility for ADA-compliance for this facility with another party.
Other party:        Another party has responsibility for ADA-compliance for this facility.
N/A:                There is no such component at this location.

Source: Amtrak plan update, October 27, 2010
                                                                                               27
                             Amtrak Office of Inspector General
                 Americans with Disabilities Act: Leadership Needed to Help
                   Ensure That Stations Served By Amtrak Are Compliant
                         Report No. 109–2010, September 29, 2011

                                        Appendix IV

             STATIONS NOT YET DEEMED ADA-COMPLIANT

Amtrak reports the following stations have not been assessed for ADA-compliance as of
October 31, 2010.

                                                       ADA Responsibility
     State     Location            Station Structure     Platform           Parking Facility
                              Amtrak Has Sole Responsibility
     AL        Tuscaloosa               Amtrak            Amtrak                Amtrak
     AZ        Williams Junction         N/A              Amtrak                 N/A
               Yuma                      N/A              Amtrak                Amtrak
     AR        Texarkana                Amtrak            Amtrak                Amtrak
     CA        Madera                   Amtrak            Amtrak                Amtrak
               Needles                  Amtrak            Amtrak                Amtrak
               Redding                  Amtrak            Amtrak                Amtrak
               San Clemente Pier         N/A              Amtrak                 N/A
     CO        Fort Morgan              Amtrak            Amtrak                Amtrak
               Glenwood Springs         Amtrak            Amtrak                Amtrak
               La Junta                 Amtrak            Amtrak                Amtrak
     CT        Windsor Locks            Amtrak            Amtrak                 N/A
     FL        Deland                   Amtrak            Amtrak                Amtrak
               Jacksonville             Amtrak            Amtrak                Amtrak
               Kissimmee                Amtrak            Amtrak                Amtrak
               Miami                    Amtrak            Amtrak                Amtrak
               Okeechobee               Amtrak            Amtrak                Amtrak
               Orlando                  Amtrak            Amtrak                Amtrak
               Sebring                  Amtrak            Amtrak                Amtrak
               Winter Haven             Amtrak            Amtrak                Amtrak
     GA        Gainesville              Amtrak            Amtrak                Amtrak
               Savannah                 Amtrak            Amtrak                Amtrak
     ID        Sandpoint                Amtrak            Amtrak                Amtrak
     IL        Alton                    Amtrak            Amtrak                Amtrak
               Carlinville              Amtrak            Amtrak                Amtrak
               Chicago—Union
               Station                  Amtrak            Amtrak                Amtrak
               Gilman                   Amtrak            Amtrak                Amtrak
               Lincoln                  Amtrak            Amtrak                 N/A
               Pontiac                  Amtrak            Amtrak                Amtrak
               Rantoul                  Amtrak            Amtrak                 N/A
               Springfield              Amtrak            Amtrak                Amtrak
     IN        Dyer                     Amtrak            Amtrak                Amtrak
               Michigan City            Amtrak            Amtrak                Amtrak
               Rensselaer               Amtrak            Amtrak                Amtrak
               Waterloo                 Amtrak            Amtrak                Amtrak
     IA        Creston                  Amtrak            Amtrak                Amtrak
                                                                                        28
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                                ADA Responsibility
State   Location            Station Structure     Platform           Parking Facility
        Fort Madison             Amtrak            Amtrak                Amtrak
        Mt. Pleasant             Amtrak            Amtrak                Amtrak
KS      Lawrence                 Amtrak            Amtrak                Amtrak
        Newton                   Amtrak            Amtrak                  N/A
        Topeka                   Amtrak            Amtrak                Amtrak
KY      Maysville                Amtrak            Amtrak                Amtrak
        South Shore—
        South Portsmouth         Amtrak            Amtrak                Amtrak
MD      Cumberland               Amtrak            Amtrak                Amtrak
MI      Ann Arbor                Amtrak            Amtrak                Amtrak
        Birmingham               Amtrak            Amtrak                 N/A
        Grand Rapids             Amtrak            Amtrak                Amtrak
        Jackson                  Amtrak            Amtrak                Amtrak
        Niles                    Amtrak            Amtrak                Amtrak
        Port Huron               Amtrak            Amtrak                Amtrak
MN      Detroit Lakes            Amtrak            Amtrak                Amtrak
        Red Wing                 Amtrak            Amtrak                Amtrak
        St. Cloud                Amtrak            Amtrak                Amtrak
        Winona                   Amtrak            Amtrak                Amtrak
MS      Greenwood                Amtrak            Amtrak                Amtrak
MO      Independence             Amtrak            Amtrak                Amtrak
        Jefferson City           Amtrak            Amtrak                Amtrak
        La Plata                 Amtrak            Amtrak                Amtrak
        Lees Summit              Amtrak            Amtrak                Amtrak
        Sedalia                  Amtrak            Amtrak                Amtrak
MT      Browning
        (seasonal)               Amtrak            Amtrak                Amtrak
        Cut Bank                 Amtrak            Amtrak                Amtrak
        East Glacier Park
        (seasonal)               Amtrak            Amtrak                Amtrak
        Glasgow                  Amtrak            Amtrak                Amtrak
        Havre                    Amtrak            Amtrak                Amtrak
        Libby                    Amtrak            Amtrak                Amtrak
        Malta                    Amtrak            Amtrak                Amtrak
MT      Shelby                   Amtrak            Amtrak                Amtrak
        Wolf Point               Amtrak            Amtrak                Amtrak
NE      McCook                   Amtrak            Amtrak                Amtrak
        Omaha                    Amtrak            Amtrak                Amtrak
NV      Elko                     Amtrak            Amtrak                Amtrak
        Winnemucca               Amtrak            Amtrak                Amtrak
NM      Raton                    Amtrak            Amtrak                Amtrak
NY      Amsterdam                Amtrak            Amtrak                Amtrak
        Fort Edward—
        Glens Falls              Amtrak            Amtrak                Amtrak
        Niagara Falls            Amtrak            Amtrak                Amtrak
        Port Kent
        (seasonal)               Amtrak            Amtrak                Amtrak
                                                                                          29
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                                  ADA Responsibility
State   Location              Station Structure     Platform           Parking Facility
        Rhinecliff                 Amtrak            Amtrak                Amtrak
        Rochester                  Amtrak            Amtrak                Amtrak
        Ticonderoga                Amtrak            Amtrak                Amtrak
        Whitehall                  Amtrak            Amtrak                Amtrak
NC      Charlotte                  Amtrak            Amtrak                Amtrak
ND      Devils Lake                Amtrak            Amtrak                Amtrak
        Fargo                      Amtrak            Amtrak                Amtrak
        Grand Forks                Amtrak            Amtrak                Amtrak
        Minot                      Amtrak            Amtrak                Amtrak
        Rugby                      Amtrak            Amtrak                Amtrak
        Stanley                    Amtrak            Amtrak                Amtrak
        Williston                  Amtrak            Amtrak                Amtrak
OH      Alliance                   Amtrak            Amtrak                Amtrak
        Bryan                      Amtrak            Amtrak                Amtrak
        Cleveland                  Amtrak            Amtrak                Amtrak
        Elyria                     Amtrak            Amtrak                Amtrak
OK      Oklahoma City              Amtrak            Amtrak                Amtrak
OR      Chemult                    Amtrak            Amtrak                Amtrak
        Klamath Falls              Amtrak            Amtrak                Amtrak
PA      Connellsville              Amtrak            Amtrak                Amtrak
        Huntingdon                 Amtrak            Amtrak                Amtrak
        Johnstown                  Amtrak            Amtrak                Amtrak
        Middletown                 Amtrak            Amtrak                Amtrak
        Mount Joy                  Amtrak            Amtrak                Amtrak
PA      Paoli                      Amtrak            Amtrak                Amtrak
        Parkesburg                 Amtrak            Amtrak                Amtrak
SC      Charleston                 Amtrak            Amtrak                Amtrak
        Dillon                     Amtrak            Amtrak                Amtrak
        Florence                   Amtrak            Amtrak                Amtrak
        Greenville                 Amtrak            Amtrak                Amtrak
TX      Alpine                     Amtrak            Amtrak                Amtrak
        Austin                     Amtrak            Amtrak                Amtrak
        Houston                    Amtrak            Amtrak                Amtrak
        Longview                   Amtrak            Amtrak                Amtrak
        McGregor                   Amtrak            Amtrak                Amtrak
        Taylor                       N/A             Amtrak                Amtrak
UT      Green River                  N/A             Amtrak                Amtrak
        Helper                     Amtrak            Amtrak                Amtrak
VT      Essex Junction             Amtrak            Amtrak                Amtrak
        Montpelier                 Amtrak            Amtrak                Amtrak
        Randolph                     N/A             Amtrak                Amtrak
        St. Albans                 Amtrak            Amtrak                Amtrak
        Waterbury                  Amtrak            Amtrak                Amtrak
        Windsor                      N/A             Amtrak                  N/A
VA      Clifton Forge              Amtrak            Amtrak                Amtrak
        Lorton (Auto Train)        Amtrak            Amtrak                Amtrak
        Petersburg                 Amtrak            Amtrak                Amtrak
                                                                                          30
                         Amtrak Office of Inspector General
             Americans with Disabilities Act: Leadership Needed to Help
               Ensure That Stations Served By Amtrak Are Compliant
                     Report No. 109–2010, September 29, 2011

                                                  ADA Responsibility
State      Location           Station Structure     Platform           Parking Facility
           Staunton                Amtrak            Amtrak                Amtrak
WA         Bingen—White
           Salmon                  Amtrak            Amtrak                Amtrak
           Leavenworth              N/A              Amtrak                 N/A
           Stanwood                 N/A              Amtrak                 N/A
           Tacoma                  Amtrak            Amtrak                Amtrak
WV         Huntington              Amtrak            Amtrak                Amtrak
           Prince                  Amtrak            Amtrak                Amtrak
           White Sulphur
           Springs                 Amtrak            Amtrak                Amtrak
WI         Columbus                Amtrak            Amtrak                Amtrak
           Portage                 Amtrak            Amtrak                Amtrak
           Tomah                   Amtrak            Amtrak                 N/A
WA         Wishram                 Amtrak            Amtrak                Amtrak
Subtotal           137
                       Amtrak Shares ADA Responsibility
AL         Anniston              Other Party         Amtrak              Other Party
           Birmingham              Amtrak            Amtrak              Other Party
AZ         Flagstaff             Other Party         Shared              Other Party
           Maricopa                Shared            Shared                Shared
           Tucson                Other Party         Amtrak              Other Party
AR         Little Rock           Other Party         Amtrak                Shared
           Walnut Ridge          Other Party         Amtrak                Amtrak
CA         Barstow                  N/A              Amtrak              Other Party
           Chico                 Other Party         Amtrak              Other Party
           Colfax                Other Party         Amtrak              Other Party
           Coliseum/Oakland
           Airport               Other Party         Amtrak              Other Party
           Davis                 Other Party         Amtrak              Other Party
           Dunsmuir              Other Party         Amtrak              Other Party
           Laguna Niguel            N/A              Shared                Shared
           Lodi                  Other Party         Amtrak              Other Party
           Merced                Other Party         Amtrak              Other Party
           Ontario                  N/A              Shared              Other Party
           Orange                  Shared            Shared                Shared
           Palm Springs          Other Party         Amtrak              Other Party
           Paso Robles           Other Party         Amtrak              Other Party
           Pomona                   N/A              Amtrak              Other Party
           Richmond                Amtrak            Amtrak              Other Party
           Rocklin               Other Party         Amtrak                Amtrak
           Salinas               Other Party         Amtrak              Other Party
           San Bernardino        Other Party         Amtrak                 N/A
           Santa Clara              N/A              Shared              Other Party
           Stockton—
           Downtown/ACE
           Station               Other Party         Shared                 N/A
           Suisun                Other Party         Amtrak              Other Party
                                                                                         31
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                                 ADA Responsibility
State   Location             Station Structure     Platform           Parking Facility
        Truckee                 Other Party         Amtrak              Other Party
        Victorville             Other Party         Amtrak              Other Party
CO      Granby                  Other Party         Amtrak                Amtrak
        Grand Junction          Other Party         Amtrak              Other Party
        Lamar                   Other Party         Amtrak              Other Party
        Trinidad                Other Party         Amtrak                Shared
        Winter Park/Fraser      Other Party         Amtrak                  N/A
CT      Berlin                    Amtrak            Amtrak              Other Party
        Hartford                Other Party         Amtrak              Other Party
        Meriden                 Other Party         Amtrak              Other Party
        Mystic                  Other Party         Amtrak              Other Party
        New London                Shared            Amtrak              Other Party
        Old Saybrook              Amtrak            Amtrak                Shared
        Wallingford             Other Party         Shared              Other Party
        Windsor                 Other Party         Amtrak              Other Party
DE      Newark                  Other Party         Shared                Shared
DC      Washington                Shared            Shared                Shared
FL      Tampa                   Other Party         Amtrak                Shared
        Winter Park             Other Party         Amtrak              Other Party
GA      Atlanta                   Amtrak            Amtrak                Shared
        Jessup                  Other Party         Amtrak              Other Party
IL      Bloomington—
        Normal                    Amtrak            Amtrak              Other Party
        Carbondale                Amtrak            Amtrak              Other Party
        Centralia               Other Party         Amtrak                Amtrak
        Du Quoin                Other Party         Amtrak              Other Party
        Dwight                  Other Party         Amtrak              Other Party
        Effingham                 Shared            Amtrak                Amtrak
        Galesburg               Other Party         Amtrak              Other Party
        Homewood                  Shared            Amtrak                Shared
        Kankakee                Other Party         Amtrak              Other Party
        Kewanee                   Shared            Amtrak              Other Party
        La Grange                 Shared            Shared                 N/A
        Macomb                    Shared            Amtrak                Shared
        Mattoon                 Other Party         Amtrak              Other Party
        Naperville              Other Party         Shared              Other Party
        Plano                   Other Party         Amtrak              Other Party
        Princeton                 Shared            Shared                Shared
        Quincy                  Other Party         Amtrak              Other Party
        Summit                  Other Party         Shared              Other Party
IN      Connersville            Other Party         Amtrak                Amtrak
        Elkhart                 Other Party         Amtrak              Other Party
        Hammond—Whiting           Amtrak            Amtrak                Shared
        Lafayette               Other Party         Amtrak              Other Party
IA      Burlington              Other Party         Amtrak              Other Party
        Osceola                 Other Party         Amtrak              Other Party
        Ottumwa                 Other Party         Amtrak              Other Party
                                                                                       32
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                               ADA Responsibility
State   Location           Station Structure     Platform           Parking Facility
KS      Dodge City            Other Party         Amtrak              Other Party
        Garden City           Other Party         Amtrak              Other Party
        Hutchinson            Other Party         Amtrak              Other Party
KY      Ashland               Other Party         Shared              Other Party
LA      Hammond               Other Party         Amtrak              Other Party
        Lafayette             Other Party         Amtrak              Other Party
        Lake Charles          Other Party         Amtrak              Other Party
MD      Aberdeen                Shared            Shared                Shared
        BWI Thurgood
        Marshall Airport
        Station                 Shared            Shared                Shared
        New Carrollton          Shared            Shared                Shared
        Rockville               Shared            Shared                Shared
MA      Amherst               Other Party         Amtrak              Other Party
        Boston—North
        Station                 Shared            Shared                Shared
        Framingham            Other Party         Shared              Other Party
        Haverhill               Shared            Shared                Shared
        Pittsfield            Other Party         Amtrak              Other Party
        Route 128               Amtrak            Amtrak              Other Party
        Springfield           Other Party         Amtrak              Other Party
        Woburn                  Shared            Shared                Shared
        Worcester             Other Party         Shared              Other Party
MI      Albion                  Shared            Amtrak                Shared
        Bangor                Other Party         Amtrak              Other Party
        Battle Creek          Other Party         Amtrak              Other Party
        Dearborn              Other Party         Amtrak              Other Party
        Detroit               Other Party         Amtrak              Other Party
        Dowagiac              Other Party         Amtrak              Other Party
        East Lansing            Shared            Amtrak                Shared
        Flint                   Shared            Shared                Shared
        Holland               Other Party         Amtrak              Other Party
        Lapeer                Other Party         Amtrak              Other Party
        Royal Oak             Other Party         Amtrak              Other Party
MN      Staples               Other Party         Amtrak              Other Party
MS      Hattiesburg           Other Party         Amtrak              Other Party
        Jackson               Other Party         Amtrak                 N/A
        Meridian              Other Party         Amtrak              Other Party
MO      Hermann                 Shared            Amtrak              Other Party
        Kansas City           Other Party         Amtrak              Other Party
        Kirkwood              Other Party         Amtrak              Other Party
        Poplar Bluff          Other Party         Amtrak              Other Party
        St. Louis             Other Party       Other Party             Shared
        Warrensburg           Other Party         Amtrak              Other Party
        Washington            Other Party         Amtrak              Other Party
MT      West Glacier          Other Party         Amtrak              Other Party
        Whitefish             Other Party         Amtrak                Shared
                                                                                            33
                       Amtrak Office of Inspector General
           Americans with Disabilities Act: Leadership Needed to Help
             Ensure That Stations Served By Amtrak Are Compliant
                   Report No. 109–2010, September 29, 2011

                                                    ADA Responsibility
State   Location                Station Structure     Platform           Parking Facility
NE      Hastings                     Shared            Amtrak                Shared
        Holdrege                     Shared            Amtrak                Shared
        Lincoln                      Shared            Amtrak                Shared
NH      Claremont                  Other Party         Amtrak              Other Party
NJ      Metropark                    Shared            Shared              Other Party
        New Brunswick                Shared            Shared                  N/A
        Newark—Penn
        Station                    Other Party         Shared              Other Party
        Newark Liberty
        International Airport      Other Party         Shared                 N/A
        Princeton Junction         Other Party         Shared              Other Party
        Trenton                      Shared            Shared              Other Party
NM      Albuquerque                  Amtrak          Other Party             Amtrak
        Gallup                     Other Party         Amtrak              Other Party
        Lamy                         Shared            Amtrak                Amtrak
        Las Vegas                  Other Party         Amtrak              Other Party
NY      Albany—
        Rensselaer                   Shared            Shared                Shared
        Buffalo—Exchange
        St.                        Other Party         Amtrak              Other Party
        Buffalo—Depew              Other Party         Amtrak              Other Party
        Hudson                       Amtrak            Amtrak              Other Party
        Plattsburgh                  Shared            Amtrak                Shared
        Port Henry                   Shared            Amtrak                Amtrak
        Rome                       Other Party         Amtrak                Shared
        Rouses Point               Other Party         Amtrak              Other Party
        Saratoga Springs             Shared            Amtrak              Other Party
        Schenectady                  Amtrak            Amtrak              Other Party
        Syracuse                     Shared          Other Party           Other Party
        Utica                      Other Party         Amtrak              Other Party
        Westport                     Shared            Amtrak                Shared
NC      Fayetteville                 Shared            Amtrak                Shared
        Greensboro                   Shared          Other Party             Shared
        Hamlet                     Other Party         Amtrak              Other Party
        Rocky Mount                Other Party         Amtrak              Other Party
        Salisbury                    Shared          Other Party             Shared
        Selma                      Other Party         Shared              Other Party
        Southern Pines             Other Party         Amtrak              Other Party
        Wilson                     Other Party         Amtrak              Other Party
OH      Cincinnati                   Shared            Amtrak              Other Party
        Sandusky                   Other Party         Amtrak              Other Party
OK      Norman                     Other Party         Amtrak              Other Party
        Pauls Valley               Other Party         Amtrak              Other Party
        Purcell                    Other Party         Amtrak              Other Party
OR      Albany                     Other Party         Amtrak              Other Party
        Eugene                     Other Party         Amtrak              Other Party
        Oregon City                Other Party         Amtrak                Shared
                                                                                         34
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                                 ADA Responsibility
State   Location             Station Structure     Platform           Parking Facility
        Salem                   Other Party         Amtrak              Other Party
PA      Altoona                 Other Party         Amtrak              Other Party
        Coatesville             Other Party         Amtrak                Amtrak
        Elizabethtown           Other Party         Amtrak              Other Party
        Erie                    Other Party         Amtrak              Other Party
        Greensburg                Shared            Amtrak                Shared
        Harrisburg                Shared            Amtrak              Other Party
        Lancaster                 Amtrak            Amtrak                Shared
        Lewistown                 Shared            Amtrak                Shared
        Philadelphia—30th
        Street Station            Shared            Shared                Shared
        Philadelphia—North        Shared            Amtrak              Other Party
        Pittsburgh                Amtrak            Amtrak              Other Party
RI      Kingston                Other Party         Amtrak              Other Party
        Providence                Amtrak            Amtrak              Other Party
        Westerly                  Shared            Amtrak              Other Party
SC      Camden                    Shared            Amtrak                Amtrak
        Clemson                 Other Party         Amtrak              Other Party
        Columbia                Other Party         Amtrak              Other Party
        Denmark                 Other Party         Amtrak              Other Party
        Spartanburg             Other Party         Amtrak              Other Party
        Yemassee                Other Party         Amtrak              Other Party
TX      Beaumont                   N/A              Amtrak              Other Party
        Cleburne                Other Party         Amtrak              Other Party
        Del Rio                 Other Party         Amtrak              Other Party
        Fort Worth                Shared          Other Party             Shared
        Marshall                Other Party         Amtrak              Other Party
        Mineola                 Other Party         Amtrak              Other Party
        San Antonio               Shared            Shared                Shared
        Temple                  Other Party         Amtrak              Other Party
UT      Provo                     Amtrak            Amtrak              Other Party
VT      Bellows Falls             Shared            Shared                Shared
        Brattleboro             Other Party         Amtrak              Other Party
        Castleton               Other Party         Amtrak              Other Party
        White River Jct.          Shared            Amtrak              Other Party
VA      Alexandria              Other Party         Shared              Other Party
        Ashland                 Other Party         Amtrak                 N/A
        Burke Centre            Other Party         Shared              Other Party
        Charlottesville           Shared            Amtrak              Other Party
        Culpeper                Other Party         Amtrak              Other Party
        Franconia—
        Springfield             Other Party         Shared              Other Party
        Fredericksburg            Shared            Shared                Shared
        Lynchburg               Other Party         Amtrak              Other Party
        Manassas                Other Party         Shared              Other Party
        Newport News            Other Party         Amtrak              Other Party
        Quantico                  Shared            Shared              Other Party
                                                                                             35
                         Amtrak Office of Inspector General
             Americans with Disabilities Act: Leadership Needed to Help
               Ensure That Stations Served By Amtrak Are Compliant
                     Report No. 109–2010, September 29, 2011

                                                     ADA Responsibility
State      Location              Station Structure     Platform           Parking Facility
           Richmond—Main
           St.                      Other Party         Amtrak                Shared
           Richmond—Staples
           Mill Rd.                   Amtrak            Amtrak              Other Party
           Williamsburg             Other Party         Amtrak              Other Party
           Woodbridge               Other Party         Shared              Other Party
WA         Centralia                Other Party         Amtrak              Other Party
           Edmonds                    Shared          Other Party           Other Party
           Ephrata                  Other Party         Amtrak              Other Party
           Kelso-Longview             Shared            Amtrak                Amtrak
           Mount Vernon             Other Party         Amtrak              Other Party
           Olympia/Lacey            Other Party         Amtrak              Other Party
           Pasco                    Other Party         Amtrak              Other Party
           Seattle—King
           Street Station             Shared            Amtrak                Shared
WA         Tukwila                    Shared            Shared                Shared
           Vancouver                Other Party         Shared              Other Party
           Wenatchee                  Amtrak            Amtrak              Other Party
WV         Charleston                 Amtrak            Amtrak                Shared
           Harpers Ferry              Shared            Shared                Shared
           Hinton                   Other Party         Amtrak                Amtrak
           Martinsburg              Other Party         Shared              Other Party
           Montgomery                  N/A              Amtrak              Other Party
WI         LaCrosse                 Other Party         Amtrak                Amtrak
           Milwaukee—
           General Mitchell
           Intl. Airport            Other Party         Amtrak              Other Party
           Wisconsin Dells          Other Party         Amtrak              Other Party
Subtotal             230
                             Amtrak Has No Responsibility
AZ         Kingman                  Other Party       Other Party           Other Party
           Winslow                  Other Party       Other Party           Other Party
CA         Emeryville               Other Party       Other Party           Other Party
           Riverside                Other Party       Other Party           Other Party
           San Diego—Old
           Town                     Other Party       Other Party              N/A
CO         Denver                   Other Party       Other Party           Other Party
CT         Bridgeport               Other Party       Other Party           Other Party
           New Haven                Other Party       Other Party           Other Party
           Stamford                 Other Party       Other Party           Other Party
FL         Deerfield Beach          Other Party       Other Party           Other Party
           Delray Beach             Other Party       Other Party           Other Party
           Fort Lauderdale          Other Party       Other Party           Other Party
           Hollywood                Other Party       Other Party           Other Party
           Lakeland                 Other Party       Other Party           Other Party
           Palatka                  Other Party       Other Party           Other Party
           West Palm Beach          Other Party       Other Party           Other Party
                                                                                        36
                      Amtrak Office of Inspector General
          Americans with Disabilities Act: Leadership Needed to Help
            Ensure That Stations Served By Amtrak Are Compliant
                  Report No. 109–2010, September 29, 2011

                                                ADA Responsibility
State   Location            Station Structure     Platform           Parking Facility
IL      Champaign-Urbana       Other Party       Other Party           Other Party
        Glenview               Other Party       Other Party           Other Party
        Joliet                 Other Party       Other Party           Other Party
        Mendota                Other Party       Other Party           Other Party
IN      Indianapolis           Other Party       Other Party               N/A
        South Bend             Other Party       Other Party           Other Party
LA      New Orleans            Other Party       Other Party           Other Party
ME      Portland               Other Party       Other Party           Other Party
        Saco                   Other Party       Other Party           Other Party
        Wells                  Other Party       Other Party           Other Party
MA      Boston—Back Bay        Other Party       Other Party               N/A
        Boston—South
        Station                Other Party       Other Party              N/A
MI      Durand                 Other Party       Other Party           Other Party
        Kalamazoo              Other Party       Other Party           Other Party
        New Buffalo               N/A            Other Party              N/A
        Pontiac                Other Party       Other Party           Other Party
        St. Joseph             Other Party       Other Party           Other Party
NV      Reno                   Other Party       Other Party              N/A
NH      Dover                  Other Party       Other Party           Other Party
        Durham                 Other Party       Other Party           Other Party
        Exeter                 Other Party       Other Party           Other Party
NY      Croton Harmon          Other Party       Other Party           Other Party
        New Rochelle           Other Party       Other Party           Other Party
        Poughkeepsie           Other Party       Other Party           Other Party
        Yonkers                Other Party       Other Party           Other Party
NC      Burlington             Other Party       Other Party           Other Party
        Cary                   Other Party       Other Party           Other Party
        Durham                 Other Party       Other Party           Other Party
        High Point             Other Party       Other Party           Other Party
        Kannapolis             Other Party       Other Party           Other Party
        Raleigh                Other Party       Other Party           Other Party
OH      Toledo                 Other Party       Other Party           Other Party
OK      Ardmore                Other Party       Other Party           Other Party
OR      Portland               Other Party       Other Party           Other Party
PA      Ardmore                Other Party       Other Party           Other Party
        Cornwells Heights      Other Party       Other Party           Other Party
        Downingtown            Other Party       Other Party           Other Party
        Exton                  Other Party       Other Party           Other Party
SC      Kingstree              Other Party       Other Party           Other Party
TN      Memphis                Other Party       Other Party           Other Party
TX      Dallas                 Other Party       Other Party           Other Party
        El Paso                Other Party       Other Party           Other Party
        Gainesville            Other Party       Other Party           Other Party
        San Marcos             Other Party       Other Party           Other Party
UT      Salt Lake City         Other Party       Other Party           Other Party
VT      Rutland                Other Party       Other Party           Other Party
                                                                                                                  37
                                  Amtrak Office of Inspector General
                      Americans with Disabilities Act: Leadership Needed to Help
                        Ensure That Stations Served By Amtrak Are Compliant
                              Report No. 109–2010, September 29, 2011

                                                                      ADA Responsibility
     State         Location                    Station Structure          Platform             Parking Facility
     VA            Danville                       Other Party            Other Party             Other Party
     WA            Bellingham                     Other Party            Other Party             Other Party
                   Spokane                        Other Party            Other Party             Other Party
     WI            Milwaukee                      Other Party            Other Party             Other Party
                   Sturtevant                     Other Party            Other Party             Other Party
     Subtotal               66

      TOTAL                 434

Notes
Amtrak:         Amtrak has responsibility for ADA compliance for this facility.
Shared:         Amtrak shares responsibility for ADA compliance for this facility with another party.
Other party:    Another party has responsibility for ADA compliance for this facility.
N/A:            There is no such facility at this location.

Source: Amtrak plan update, October 27, 2010
                                                                         38
                        Amtrak Office of Inspector General
            Americans with Disabilities Act: Leadership Needed to Help
              Ensure That Stations Served By Amtrak Are Compliant
                    Report No. 109–2010, September 29, 2011



                                     Appendix V

                            ABBREVIATIONS
ADA    Americans with Disabilities Act

DOT    Department of Transportation

FY     fiscal year

GAO    Government Accountability Office

OIG    Office of Inspector General

PIDS   Passenger Information Display System
                                                                                 39
                                Amtrak Office of Inspector General
                    Americans with Disabilities Act: Leadership Needed to Help
                      Ensure That Stations Served By Amtrak Are Compliant
                            Report No. 109–2010, September 29, 2011



                                          Appendix VI

                                    TEAM MEMBERS


David R. Warren, Assistant Inspector General, Audits

Michael Kennedy, Senior Director

Joseph Zammarella, Auditor-in-Charge

George Atuobi, Principal Auditor

Kira Rao, Auditor

Michael P. Fruitman, Principal Communications Officer
                                                                                         40
                              Amtrak Office of Inspector General
                  Americans with Disabilities Act: Leadership Needed to Help
                    Ensure That Stations Served By Amtrak Are Compliant
                          Report No. 109–2010, September 29, 2011




               OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission         Amtrak OIG’s mission is to
                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency within
                                Amtrak;

                                prevent and detect fraud, waste, and abuse in Amtrak's
                                programs and operations;

                                review security and safety policies and programs; and

                                review and make recommendations regarding existing
                                and proposed legislation and regulations relating to
                                Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Congressional and            E. Bret Coulson, Senior Director
Public Relations             Congressional and Public Affairs

                             Mail:     Amtrak OIG
                                       10 G Street, N.E., 3W-300
                                       Washington, D.C. 20002

                             Phone:    202.906.4134
                             E-mail:   bret.coulson@amtrakoig.gov
